OIG Audit Report GR-50-07-004

Violence Against Women Grants Administered by Anishinabe Legal Services, Inc., 
Cass Lake, Minnesota

Audit Report GR-50-07-004


June 2007
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, has completed an audit of the Violence Against Women grants, including supplements, awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) and the Office on Violence Against Women (OVW), to Anishinabe Legal Services, Incorporated (ALS). The purpose of these grants, numbers 1998-WLVX-0037 and 2004-WLAX-0076, was to provide legal assistance to victims of domestic violence who were members of the White Earth Indian Reservation in Minnesota. Between September 30, 1998, and September 13, 2004, ALS was awarded a total of $854,146 for this purpose. 
 We tested ALS’s accounting records, when possible, to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants. However, we were unable to test any transactions recorded before April 1, 2003, for grant 1998-WLVX-0037, because: (1) ALS lacked complete accounting records for a 9-month period; (2) current ALS employees could not access the previous accounting system; and (3) ALS could not provide us with guidance (i.e. manuals) that would explain the accounting codes used in the financial records that were available. In addition, due to employee turnover, the grantee could not provide us with basic information about grant activities prior to April 1, 2003, including its methodology for requesting drawdowns of federal funds and its policies and practices related to recording grant transactions. As a result of the lack of complete accounting records and information about ALS’s recording practices for the period October 1, 1998, to March 31, 2003, we question the federal share of the amount claimed on the Financial Status Reports for this timeframe, which amounted to $418,154, as unsupported costs. 
 We tested transactions totaling $42,240 of the $146,140 expended between April 1, 2003, and September 30, 2004, for grant 1998-WLVX-0037. We also tested $64,768 of the $145,408 expended between July 1, 2004, and September 30, 2005, for grant 2004-WLAX-0076.1 Our review determined that $8,520 of the salaries, fringe benefits,and direct costs for the 1998 grant, and $12,530 of the salaries, fringe benefits, and direct costs were unallowable because they were for personnel and items not approved in the grant budgets. Therefore, we question these costs.2
 In addition, two of the last four progress reports for the 1998 grant and one of the two progress reports for the 2004 grant were submitted late. We also determined that the grant objectives generally were being achieved, however, documentation supporting the accomplishments detailed in the progress reports was occasionally incomplete. Finally, the grantee was not monitoring the sub-grantees for compliance with requirements related to independent audits, cash management systems, and timely submission of invoices for their grant-funded expenditures. 
 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix II. 



Footnotes

Grant 2004-WLAX-0076 was awarded on September 13, 2004, but the grant budget period began July 1, 2004.
The Inspector General Act of 1978 contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix I for a breakdown of our dollar-related findings and for the definition of questioned costs.








Return to OIG Home Page